       REVIEW OF THE FEDERAL
    ACQUISITION SERVICE BLANKET
PURCHASE AGREEMENTS FOR ACQUISITION
   MANAGEMENT SUPPORT SERVICES
  REPORT NUMBER A090018/Q/A/P10002


           March 30, 2010
Date:        March 30, 2010


Reply to
Attn of:     Audit Manager, Acquisition Programs Audit Office (JA-A)

Subject:     Review of the Federal Acquisition Service Blanket Purchase Agreements
             for Acquisition Management Support Services
             Report Number A090018/Q/A/P10002

To:          James A. Williams
             Commissioner, Federal Acquisition Service (Q)

This report presents the results of the Review of the Federal Acquisition Service (FAS)
Blanket Purchase Agreements (BPAs) for Acquisition Management Support (AMS)
Services. FAS has created BPA ordering guidance to address the risks associated with
AMS services and the American Recovery and Reinvestment Act of 2009 reporting
requirements. We found opportunities for FAS to strengthen the BPA ordering
guidance, which includes implementing a plan to monitor the effectiveness of the
guidance. In addition, FAS should consider factors in the Federal Acquisition
Regulation when determining the number of BPAs and substantiate the rationale for the
shift in acquisition strategy from multiple to single BPAs.

We included in Appendix A of this report your written comments to the draft report. I
would like to thank your staff for their assistance during this review. If you have any
questions regarding this report, please contact me on (816) 926-8610.




                      241 18th Street, Suite 400, Arlington, VA 22202-3402
                        Federal Recycling Program   Printed on Recycled Paper
                            REVIEW OF THE FEDERAL
                         ACQUISITION SERVICE BLANKET
                     PURCHASE AGREEMENTS FOR ACQUISITION
                        MANAGEMENT SUPPORT SERVICES
                       REPORT NUMBER A090018/Q/A/P10002


                             TABLE OF CONTENTS

                                                                           Page
EXECUTIVE SUMMARY
  Purpose                                                                   i
  Background                                                                i
  Results in Brief                                                          i
  Recommendations                                                           ii
  Management Comments                                                       ii
INTRODUCTION
  Background                                                                1
  Objectives, Scope, and Methodology                                        2
RESULTS OF REVIEW
  Brief                                                                     3
  FAS Should Clarify Key Steps that Reduce Risks Related to AMS Services    3
  FAS Should Monitor the Effectiveness of BPA Ordering Guidance             6
  Decisions Related to the Number of BPAs Not Fully Supported               6
  Conclusion                                                                8
  Recommendations                                                           9
  Internal Controls                                                         9
  Management Comments                                                       10
APPENDICES
  Appendix A – Management Comments                                         A-1
  Appendix B – Report Distribution                                         B-1
                               REVIEW OF THE FEDERAL
                            ACQUISITION SERVICE BLANKET
                        PURCHASE AGREEMENTS FOR ACQUISITION
                           MANAGEMENT SUPPORT SERVICES
                          REPORT NUMBER A090018/Q/A/P10002


                                       EXECUTIVE SUMMARY

Purpose

The Office of Inspector General evaluated the Federal Acquisition Service’s (FAS)
controls over the use of the Blanket Purchase Agreements (BPA) for Acquisition
Management Support (AMS) services. We performed this review to determine if the
controls are adequate to reduce the risks associated with AMS services. We also
reviewed the BPA documentation to determine if FAS planned and executed the
procurement in accordance with the Federal Acquisition Regulation (FAR) and the
American Recovery and Reinvestment Act of 2009 (Recovery Act).


Background

In March 2009, FAS awarded three BPAs with an estimated value of $100 million 1 for
AMS services against the Mission Oriented Business Integrated Services (MOBIS)
Multiple Award Schedule (MAS). FAS awarded the BPAs in anticipation of the need for
additional support to fulfill acquisition projects across the General Services
Administration and to support specific projects related to the Recovery Act. FAS also
created BPA ordering guidance that outlines FAR and Office of Management and
Budget provisions for mitigating the risks associated with AMS services; as ordering
activities that rely on contractors to assist in acquisition-related work face an increased
risk of contractors performing inherently governmental work and conflicts of interest.
The BPA ordering guidance also incorporated reporting requirements related to the
Recovery Act.


Results in Brief

The BPA ordering guidance contains key preventative measures that address the risks
associated with AMS services and Recovery Act reporting requirements, and we found
opportunities where FAS could strengthen the guidance. FAS should also implement a
plan to monitor the effectiveness of the BPA ordering guidance. Finally, our review of
the BPA documentation reflected that FAS generally followed FAR requirements in
planning and executing the acquisition; however, the BPA file did not indicate that FAS
considered factors in FAR Subpart 8.405-3(a)(1) when determining the number of BPAs
to establish. In addition, the BPA file lacked sufficient detail to substantiate the rationale
1
    The BPA periods of performance include a base year and four one-year option periods.



                                                     i
for a shift in acquisition strategy from multiple BPAs to a single BPA and two backup
BPAs. As a result, there is reduced assurance that the strategy is appropriate for this
acquisition.


Recommendations

We recommend that the Commissioner, Federal Acquisition Service:

   1. Supplement the BPA ordering guidance by:
      a. Adding to Section 2.1 of the Acquisition Management Support Services
         Contracting Officer Ordering Guide the requirement to develop a statement of
         work at the order level, as outlined in the Sample Acquisition Management
         RFQ and prescribed in FAR Subpart 8.405-2(b);
      b. Adding more specific guidance in Section 2.4 of the Acquisition Management
         Support Services Contracting Officer Ordering Guide to aid ordering activities
         on determining the appropriate ratios of contractor employees to government
         employees when acquiring AMS services;
      c. Clarifying in Section 4.3 of the Acquisition Management Support Services
         Contracting Officer Ordering Guide ordering activity requirements defined in
         FAR Subpart 8.405-2(d). Specifically, to indicate that the ordering activity
         contracting officer is responsible for making a written determination that the
         total price of the task order is fair and reasonable based on an evaluation of
         the contractor’s proposal;
      d. Considering the addition of references to FAR Subpart 7.503, which
         addresses inherently governmental work, and FAR Subpart 9.5, which
         addresses organizational conflicts of interest.
   2. Develop and implement a plan to monitor the effectiveness of the BPA ordering
      guidance and improve the guidance as necessary.
   3. Ensure that the BPA file contains sufficient explanation of how the shift in
      acquisition strategy will save time and contracting resources.
   4. Ensure that future BPA awards reflect consideration of the factors listed in FAR
      Subpart 8.405-3(a)(1) when determining the number of BPAs to establish for
      BPA awards.


Management Comments

The Commissioner partially agreed with these findings. Appendix A of this report
contains the Commissioner’s comments in their entirety.




                                           ii
                             REVIEW OF THE FEDERAL
                          ACQUISITION SERVICE BLANKET
                      PURCHASE AGREEMENTS FOR ACQUISITION
                         MANAGEMENT SUPPORT SERVICES
                        REPORT NUMBER A090018/Q/A/P10002


                                        INTRODUCTION

Background

On January 6, 2009, Congress passed legislation that allocated an additional $5.5
billion to the General Services Administration’s (GSA) Fiscal Year (FY) 2009 budget for
construction and energy-related projects in support the American Reinvestment and
Recovery Act (Recovery Act). To assist in awarding contracts for these expenditures,
GSA’s Public Buildings Service (PBS) enlisted the support of GSA’s Federal Acquisition
Service (FAS) to provide a vehicle to obtain Acquisition Management Support (AMS)
services under the Mission Oriented Business Integrated Services (MOBIS) schedule.
In March 2009, FAS awarded three Blanket Purchase Agreements (BPAs) for AMS
services under this schedule with an estimated value of $100 million over five years.
FAS awarded the BPAs in anticipation of the need for additional support to fulfill
acquisition projects across GSA and to support specific projects related to the Recovery
Act. FAS also created BPA ordering guidance for the proper use of the BPAs.

As part of the Office of Inspector General’s (OIG) FY 2009 Annual Audit Plan, our office
initiated a program level review of the use of Multiple Award Schedule (MAS) contracts
for AMS services to evaluate the controls FAS has implemented at the MAS program
level to reduce the risks associated with these services. The government’s reliance on
contractors for AMS services raises concerns of conflicts of interest and/or situations
where contractors will perform inherently governmental work. For example, contractors
that provide AMS services to the government may become privy to information that
gives the contractor an unfair competitive advantage, thus creating a conflict of interest.
Utilizing contractors for AMS services also increases the risk that contractors will
perform inherently governmental functions because the nature of these services is
closely related to functions that affect best value judgments for the government. 2 The
Federal Acquisition Regulation (FAR) prohibits the use of contractors for inherently
government work, and the Office of Management and Budget’s (OMB) Office of Federal
Procurement Policy (OFPP) provides additional guidance for reducing this risk.
Because the AMS services BPAs are among the first major FAS acquisitions related to
the Recovery Act and because of their relevance to our program level review, we
initiated a separate review to evaluate the controls FAS has implemented over the use
of the BPAs. We also performed a limited assessment to determine if FAS planned and
executed the procurement in accordance with the FAR and the Recovery Act.


2
 Office of Federal Procurement Policy Letter 92-1, Inherently Governmental Functions (September
1992).


                                                  1
Objectives, Scope, and Methodology

The objectives of the review were to (1) evaluate controls FAS implemented over the
use of the BPAs and (2) perform a limited review to determine if FAS planned and
executed the procurement in accordance with the FAR and Recovery Act requirements.

To accomplish our objectives, we:

    • Reviewed the BPA file and the first task order placed against the BPAs;
    • Held discussions with FAS management officials;
    • Held discussions with FAS contracting officials responsible for awarding and
      administering the BPAs and the first task order placed under one of the BPAs;
    • Held discussions with FAS and PBS acquisition officials responsible for providing
      guidance to ordering activities on the use of the BPAs;
    • Reviewed the FAS BPA ordering guidance;
    • Reviewed applicable FARs, GSA Acquisition Letter V-09-01, the Recovery Act,
      Presidential Memoranda, and OMB guidance related to the Recovery Act, as well
      as OMB guidance related to risks associated with AMS services;
    • Reviewed the Special Ordering Instructions for MOBIS Acquisition Management
      Support;
    • Reviewed a draft of FAS’ Standard Operating Procedures for Acquisition
      Management Support Services BPA; and
    • Reviewed the Internal Controls at the General Services Administration Desk
      Guide.

We conducted our review from April through May 2009 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                                          2
                           REVIEW OF THE FEDERAL
                        ACQUISITION SERVICE BLANKET
                    PURCHASE AGREEMENTS FOR ACQUISITION
                       MANAGEMENT SUPPORT SERVICES
                      REPORT NUMBER A090018/Q/A/P10002


                                   RESULTS OF REVIEW

Brief

FAS has taken preventative measures to address the risks associated with AMS
services, as well as Recovery Act reporting requirements, by establishing ordering
guidance and training for the proper use of the BPAs. However, we believe FAS could
strengthen the guidance by clarifying the key steps necessary to reduce risk. In
addition, FAS should implement a plan to monitor the effectiveness of the BPA ordering
guidance. Finally, while the BPA documentation reflected that FAS generally followed
FAR requirements in planning and executing the acquisition, we found no evidence that
FAS considered factors in the FAR when determining the number of BPAs to establish.
In addition, the BPA file lacked sufficient detail to substantiate the rationale for a shift in
acquisition strategy from multiple BPAs to a single BPA and two backup BPAs. As a
result, there is reduced assurance that the strategy is appropriate for this acquisition.


FAS Should Clarify Key Steps that Reduce Risks Related to AMS Services

FAS has established supplementary BPA ordering guidance and mandated ordering
activities to attend training workshops prior to using the BPAs, both important steps to
properly manage the BPAs. Because of the risks associated with AMS services, we
identified areas where FAS could strengthen the BPA ordering guidance. Our
recommendations focus on clarifying key preventative steps ordering activities should
take towards reducing the risks associated with AMS services.

In addition to the ordering procedures in the BPA documents, FAS created the following
documents to provide guidance to GSA ordering activities for the proper use of the
BPAs:

    1. Acquisition Management Support Services Contracting Officer Ordering Guide;
    2. Sample Acquisition Management RFQ; and
    3. Acquisition Management Support Services BPA Ordering Procedures Checklist.

This guidance addresses Recovery Act requirements and the risks the FAS
Management Services Center (MSC) 3 identified in its Special Ordering Instructions for
MOBIS Acquisition Management Support. These instructions address both the risk of

3
 The Management Services Center (MSC) manages the MOBIS schedule along with four other schedules
under the MAS Program.


                                               3
conflicts of interest and the risk that contractors will perform inherently governmental
work. FAS incorporated these instructions into the Acquisition Management Support
Services Contracting Officer Ordering Guide (CO Ordering Guide), Sample Acquisition
Management RFQ (Sample RFQ), and the Acquisition Management Support Services
BPA Ordering Procedures Checklist (BPA Checklist) and has mandated ordering
activities to attend training prior to using the BPAs.

FAS may need to contractually modify the BPAs if adoption of the following
recommendations results in inconsistencies with the ordering procedures in the BPAs.
For simplicity, our recommendations follow the outline of the CO Ordering Guide.

CO Ordering Guide

    Section 2.1 Scope
    This section lists the broad categories of services covered by the AMS services
    BPAs. However, the section does not indicate that ordering activities will still need
    to develop a statement of work (SOW) at the order level that clearly defines the
    specific requirement. Significant risks inherent to contracting for AMS services
    include contractor conflicts of interest and the risk of contractors performing
    inherently governmental work. A key preventative step is for the ordering activity to
    clearly define the work so that the contractor is able to discern whether real or
    potential conflicts of interest exist and to provide definitive boundaries for contractor
    services in support of inherently governmental work, such as the acquisition
    function.

    Broadly defined requirements heighten the risk that contractors will perform
    inherently governmental work and impede the government’s ability to adequately
    oversee contractor performance. We found that this situation actually occurred on
    the first task order placed under one of the BPAs. When soliciting quotes from the
    contractor for this task order, FAS used the same broad requirements listed in the
    BPAs. After receiving contractor feedback, FAS modified the SOW to include a
    more specific description of the work. At a minimum, this section of the guidance
    should reference the Sample RFQ document, which provides more guidance on
    developing the SOW.

    Section 2.3 BPA Rules of the Road
    This section outlines the mandate for ordering activities to attend workshops in order
    to use the BPA vehicles. During meetings with FAS officials regarding plans to
    implement guidance for the BPAs, we suggested FAS consider requiring ordering
    activities to complete training as a prerequisite for using the BPAs.             FAS
    implemented this requirement, which will help ensure that ordering activities are
    familiar with specific elements in OFPP guidance 4 and the FAR 5 that relate to risks


4
 Office of Federal Procurement Policy Letter 92-1, Inherently Governmental Functions (September
1992), and Office of Federal Procurement Policy Letter 93-1, Management Oversight of Service
Contracting (May 1994).


                                                  4
    associated with AMS services and the necessary measures to reduce these risks.
    The last bullet in this section requests that ordering activities send a copy of each
    task order issued against the BPAs to the BPA contracting officer. However, the
    BPA ordering procedures already require the contractor to send one complete copy
    of each order placed under the BPAs to the BPA contracting officer. To avoid
    duplication, FAS should consider removing the requirement for ordering activities.

    Section 2.4 Important Considerations
    This section expands upon risks related to AMS services. It refers ordering activities
    to the Special Ordering Instructions for MOBIS Acquisition Management Support
    and relevant FAR and OFPP requirements. We believe that a valuable supplement
    to this section could include more specific discussion related to the requirement for
    ordering activities to assess the existence of adequate government resources to
    monitor the quality of task order deliverables and overall contractor performance.
    Effective contract management is critical to ensure that contractors do not perform
    inherently governmental work.

    PBS officials also expressed the need for additional guidance in this area, stating
    that government contracting officers can become overwhelmed by the amount of
    oversight required to manage contractor work. Additionally, a Defense Acquisition
    University report published in November 2005 cited the concern that ordering
    activities may become too reliant on contractors. 6 The report stated that this
    reliance could suppress the government’s ability to develop an experienced
    government acquisition workforce and suggested that ordering activities limit
    contractor support to a manageable percentage of the total acquisition workforce.
    The report indicated that this would allow the government to adequately oversee
    contractor support and retain the skills necessary to carry out contracting functions.
    In the current environment of the Recovery Act, GSA’s already strained contracting
    resources will be under unprecedented pressure, especially given that recent audit
    reports have identified contract administration and oversight as a systemic
    weakness. FAS could highlight the importance of oversight to GSA ordering
    activities by providing additional guidance on managing this risk.

    Section 4.3 Basis for Pricing
    This section states, “All pricing activity shall be based on the BPA hourly rates with
    any additional proposed discounts and shall consider the mix of labor categories,
    travel, and other direct costs (ODCs) and level of effort required to perform the
    services described . . .” We believe that FAS should clarify that the ordering
    contracting officer is responsible for this evaluation. As noted previously, the BPA
    statement of work outlined only broad categories of AMS services; accordingly, this
    evaluation of the appropriate type of labor and level of effort at the task order level is
    critical to ensuring that task order pricing is fair and reasonable.


5
  FAR § 7.5, Inherently Governmental Functions and FAR § 9.5, Organizational and Consultant Conflicts
of Interest.
6
  DAU Research Report 06-001, Contracting Out Procurement Functions: An Analysis (November 2005).


                                                  5
       Section 5.0 Reference Materials – Supplementary Guidelines and Resources
       This section provides references to the supplementary guidelines and relevant
       resource materials; however, this section does not reference subparts of the FAR
       that pertain to the risks inherent to AMS services. Subparts 7.5 and 9.5 of the FAR
       highlight the risks related to procuring AMS services and offer guidance to reduce
       the risks. Providing references to these subparts in this section would accentuate to
       ordering activities their importance when considering AMS services.


FAS Should Monitor the Effectiveness of BPA Ordering Guidance

In order to evaluate the effectiveness of the ordering procedures, FAS should develop
and implement procedures to periodically assess the effectiveness of the BPA
guidance. FAS officials advised us that they did not believe they should assume an
oversight role for use of the BPAs. However, GSA’s Internal Controls at the General
Services Administration Desk Guide states, “Once controls have been implemented, it is
crucial to continuously monitor and test the controls to identify poor design or ineffective
controls.” Rather than placing FAS in a direct oversight role, this monitoring activity
would allow FAS to enhance the program to meet ordering activities’ needs. Because
the BPAs require contractors to submit task order information to FAS, the
documentation needed should be readily available to monitor the effectiveness of the
BPA guidance.


Decisions Related to the Number of BPAs Not Fully Supported

FAR Subpart 8.405-3 establishes factors that ordering activities should consider when
determining the number of BPAs to award. 7 While the BPA documentation reflected
that FAS generally planned and executed the BPAs in accordance with other FAR
requirements, FAS changed the acquisition strategy without considering the factors
outlined in FAR Subpart 8.405-3. The change in acquisition strategy from multiple-
award BPAs to a single-award BPA and two backup BPAs resulted from the need to
expedite orders of AMS services for time-sensitive Recovery Act procurements.
However, the documentation does not fully support the basis for FAS’ decision to
change the BPA acquisition strategy, and there is no evidence that FAS evaluated the
factors in FAR Subpart 8.405-3 prior to this change. As a result, there is limited
assurance that the revised strategy, which eliminates competition at the order level, is
appropriate for this procurement and in support of the Recovery Act.

When determining the number of BPAs to establish, the FAR requires consideration of
the following factors:

      i.   The scope and complexity of the requirement(s);
     ii.   The need to periodically compare multiple technical approaches or prices;
    iii.   The administrative costs of BPAs; and
7
FAR § 8.405-3, Blanket purchase agreements (BPAs).


                                               6
 iv.     The technical qualifications of the schedule contractor(s).

The acquisition plan for the BPA reflected consideration of some of these factors in
determining the method of fulfilling the overall requirement for AMS services; however,
we found no evidence that FAS considered these factors in decisions related to the
number of BPAs to establish. FAS initially planned for a multiple BPA strategy but later
amended the acquisition plan to a single-award strategy. Amendments to the BPA file
indicate that FAS changed the acquisition strategy in response to PBS officials’
assertions that PBS lacked adequate contracting resources to compete orders for AMS
services in support of time-sensitive Recovery Act procurements. Discussions with FAS
contracting officials also confirmed that they had not considered these factors in their
decision to shift from multiple BPAs to a single-award BPA and two backup BPAs.

In addition, the BPA file does not adequately explain how ordering activities will save
time with the single-award strategy. The BPA file states,

         This shift in the acquisition strategy is in the best interest of the
         Government, due to GSA’s limited contracting resources, particularly
         within PBS. The issuance of task orders will no longer require competition
         at the task order level due to the new ordering procedures, which will allow
         for GSA to meet its procurement needs more quickly.

While we recognize that a single-award strategy will not require evaluation of multiple
proposals for each order, FAS officials confirmed that the single-award BPA strategy
would still require the following steps:

       • Ordering activities must develop a comprehensive SOW, to include contract
          deliverables;
       • Ordering activities must provide written justification for other than firm, fixed-
          priced orders;
       • The contractor must prepare a proposal in response to the SOW for each task
          order;
       • Ordering activities must evaluate the contractor’s proposal, including the level of
         effort and proposed labor mix and determine that the total price is fair and
         reasonable for each task order; and
       • Ordering activities must administer the task orders to ensure that the contractor
         meets the quality and performance standards.

Therefore, it is unclear how PBS or other GSA ordering activities will save a significant
amount of time by using a single BPA versus multiple BPAs.

Subsequent to the initiation of our review, FAS contracting officials created an
addendum to the BPA acquisition plan to further explain the decision to change the
acquisition strategy. The addendum document cited the number and competency of
PBS’ current contracting resources, the urgency in meeting Recovery Act timelines, and
stated that a consistent approach to the task orders was desired. Lastly, the document


                                              7
indicated that future Recovery Act-related BPAs awarded under MAS contracts would
be multiple-award in order to enhance competition. We previously noted our concern of
how the single-award strategy will save a significant amount of time. It is also unclear
how a single-award strategy will address the number and competency level of
contracting resources, as the single-award structure still requires ordering activities to
perform the aforementioned steps. Regarding the desire for a consistent approach to
acquisition support tasks, we found no indication that this was a factor in the decision.

In addition to the concerns noted above, we believe that the original multiple-award BPA
acquisition strategy would have more fully supported the objectives of the Recovery Act.
In April 2009, OMB issued policy related to the Recovery Act that instructed executive
agencies to promote competition to the maximum extent practicable. 8 Further, GSA
has issued its own policy on the Recovery Act that emphasizes competition. 9 While we
understand that FAS negotiates MAS contracts to achieve fair and reasonable prices, 10
and that FAS competed this acquisition at the BPA level, the ordering activity will not
price individual orders under the BPAs on a competitive basis. Labor rates are only one
piece of the equation for the evaluation of pricing for services. The evaluation of the
second piece—labor mix and level of effort—will not occur until the ordering activity
develops the specific requirements at the task order level. A lack of competition at the
order level reduces the incentive for the contractor to provide the best solution at the
best price for the specific requirement.


Conclusion

FAS has established ordering guidance and training for use of the AMS services BPAs
to address risks associated with the procurement of these services, as well as Recovery
Act requirements. We identified improvements to the guidance to emphasize key steps
to reducing the risks prevalent with AMS services. The improvements include
emphasizing the requirement to develop a statement of work at the order level; the need
for more specific guidance on the appropriate ratio of contractors for adequate
oversight; clarifying to ordering activity contracting officers their responsibility to make a
written determination of fair and reasonable pricing at the task order level; and
referencing subparts in the FAR that address the risks associated with AMS services.
FAS should also implement a plan to monitor the effectiveness of the BPA ordering
guidance.

The BPA documentation reflected that FAS generally followed FAR requirements in
planning and executing the acquisition; however, FAS did not consider factors in the
FAR for determining the number of BPAs to establish, and there was insufficient detail
to substantiate the rationale for a shift in acquisition strategy from a multiple-award
environment to a single-award environment. As a result, there is reduced assurance

8
  OMB Memorandum M-09-15, Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009 (April 2009).
9
  GSA Acquisition Letter V-09-01, American Recovery and Reinvestment Act Implementation (April 2009).
10
   FAR § 8.404(d) Use of Federal Supply Schedules.


                                                 8
that the strategy is appropriate for this acquisition. For future BPA procurements, FAS
should ensure that contracting officials consider the elements in FAR Subpart 8.405-
3(a)(1) when determining the number of BPAs. The BPA file should also reflect
additional details to support the rationale for changing the acquisition strategy.


Recommendations

We recommend that the Commissioner, Federal Acquisition Service:

    1. Supplement the BPA ordering guidance by:
       a. Adding to Section 2.1 of the Acquisition Management Support Services
          Contracting Officer Ordering Guide the requirement to develop a statement of
          work at the order level, as outlined in the Sample Acquisition Management
          RFQ and prescribed in FAR Subpart 8.405-2(b);
       b. Adding more specific guidance in Section 2.4 of the Acquisition Management
          Support Services Contracting Officer Ordering Guide to aid ordering activities
          on determining the appropriate ratios of contractor employees to government
          employees when acquiring AMS services;
       c. Clarifying in Section 4.3 of the Acquisition Management Support Services
          Contracting Officer Ordering Guide ordering activity requirements defined in
          FAR Subpart 8.405-2(d). Specifically, the ordering guide should indicate that
          the ordering activity contracting officer is responsible for making a written
          determination that the total price of the task order is fair and reasonable
          based on an evaluation of the contractor’s proposal;
       d. Considering the addition of references to FAR Subpart 7.503, which
          addresses inherently governmental work, and FAR Subpart 9.5, which
          addresses organizational conflicts of interest.
    2. Develop and implement a plan to monitor the effectiveness of the BPA ordering
       guidance and improve the guidance as necessary.
    3. Ensure that the BPA file contains sufficient explanation of how the shift in
       acquisition strategy will save time and contracting resources.
    4. Ensure that future BPA awards reflect consideration of the factors listed in FAR
       Subpart 8.405-3(a)(1) when determining the number of BPAs to establish for
       BPA awards.
 

Internal Controls

We limited our assessment of internal controls to those related to the BPAs that FAS
awarded for AMS services. We provided recommendations to strengthen and improve
the current controls as discussed in the Results of Review and the Recommendations
sections.



                                           9
Management Comments

In his March 10, 2010 response to the draft report, the Commissioner partially agreed
with the recommendations.

The Commissioner concurred with Recommendations 1, 2, and 4. The Commissioner
concurred in part with Recommendation 3. The Commissioner stated that while the
FAR does not mandate documentation of a shift in acquisition strategy, “FAS is
amendable to the OIG’s recommendation for this specific BPA and believes that the
strategy fully supports the best interest of the customer and taxpayer in fully
documenting the file.”

We reaffirm our recommendation. As a point of clarification, our report states that not
only was there no evidence that FAS considered the factors in the FAR related to the
number of BPAs for the shift in strategy, but there was also no evidence that FAS
considered the applicable factors in the initial acquisition plan. In addition, FAR Subpart
4.8, Government Contract Files states, “The documentation in the files shall be
sufficient to constitute a complete history of the transaction for the purpose of – (1)
providing a complete background as a basis for informed decisions at each step in the
acquisition process.” We believe that FAS should adhere to this requirement
throughout the acquisition process.




                                            10
APPENDICES
                                                GSA Federal Acquisition Service



MEMORANDUM FOR             KENNETH L. CROMPTON
                           DEPUTY ASSISTANT INSPECTOR GENERAL FOR
                           ACQUISITION AUDITS (JA-A)



FROM:                      JAMES A. WILLIAMS
                           COMMISSIONER FEDERAL ACQUISITION SERVICE (Q)

SUBJECT:                   GSA Draft Report, "Review of the Federal Acquisition
                           Service Blanket Purchase Agreements for Acquisition
                           Management Support Services" (A090018-2)

We have reviewed the subject draft report and appreciate the opportunity to comment.
We partially agree with the findings and have detailed our level of concurrence with the
recommendations in the attachment. As applicable, time-phased action plans are being
developed to implement the report recommendations.

Please call me at (703) 605-5400 if you have any questions. Your staff may contact
Wayne Williams at (703) 605-2177 or Wayne.Williams@gsa.gov.

Enclosure
cc: Erin Priddy (JA-6)
David Garcia (JA-6)




                                                             U.S. General Services Administration
                                                             2200 Crystal Drive
                                                             Arlington, VA 20406-0003
                                                             www.gsagov 



                                          A-1
 
    Federal Acquisition Service Comments on the OIG Draft Report: "Review of
        the Federal Acquisition Service Blanket Purchase Agreements for
              Acquisition Management Support Services" (A090018)


General Comments

As highlighted by the General Service Administration's (GSA) Office of the Inspector
General (OIG) in its Review, upon award of the Blanket Purchase Agreement (BPA) for
Acquisition Management Support (AMS), the federal Acquisition Service (FAS) created
documents for the ordering activities to enhance compliance and training:

    •   Acquisition Management Support Service Contracting Officer Ordering Guide;
    •   Sample Acquisition Management Request for Quotes (RFQ); and
    •   Acquisition Management Support Services BPA Ordering Procedures Checklist.

FAS sees these documents and training as a Best Practice that should be replicated
throughout the federal government when establishing BPAs against the Multiple Award
Schedules. The OIG's review and recommendations will serve to enhance further
compliance and transparency.

The Report notes that OIG did not find evidence that FAS considered factors in the FAR
when determining the number of BPAs to establish. At the time that FAS established
the Acquisition Plan it did follow the guidance per FAR subpart 8.405-3 Blanket
Purchase Agreements (BPAs). In extensive consultation with the customer, the Public
Building Service (PBS), FAS changed the acquisition plan to award a single BPA in
order to meet PBS's need to manage task orders quickly and effectively with an
overburdened workforce. The FAR does not require that a contracting officer revisit the
specific factors as noted above. While these factors and specific documentation are not
specifically incorporated into the revised plan, the contracting team and customer had
lengthy communications to determine how to best proceed to serve the government's
needs most effectively. Although not required by regulation, FAS sees a benefit to
augmenting the contract file with additional documentation.

Recommendation No.1
Supplement the SPA ordering guidance by:
  a. Adding to Section 2.1 of the Acquisition Management Support Services
     Contracting Officer Ordering Guide the requirement to develop a statement of
     work at the order level, as outlined in the Sample Acquisition Management RFQ
     and prescribed in FAR Subpart 8.405-2(b);
    b. Adding more specific guidance in Section 2.4 of the Acquisition Management
       Support Services Contracting Officer Ordering Guide to aid ordering activities on
       determining the appropriate ratios of contractor employees to government
       employees when acquiring AMS services;


                                           A-2
 
    c. Clarifying in Section 4.3 of the Acquisition Management Support Services
       Contracting Officer Ordering Guide ordering activity requirements defined in FAR
       Subpart 8.405-2(d). Specifically, the ordering guide should indicate that the
       ordering activity Contracting Officer is responsible for making a written
       determination that the total price of the task order is fair and reasonable based
       on an evaluation of the contractor's proposal;
    d. Considering the addition of references to FAR Subpart 7.503, which addresses
       inherently governmental work, and FAR Subpart 9.5, which addresses
       organizational conflicts.


FAS concurs.



Recommendation No.2
Develop and implement a plan to monitor the effectiveness of the BPA ordering
guidance and improve the guidance as necessary.

FAS concurs.


Recommendation No.3
Ensure that the SPA file contains sufficient explanation of how the shift in
acquisition strategy will save time and contracting resources.

FAS concurs in part. As stated in the general comments, the FAR does not mandate
that the shift in acquisition strategy be documented. However, FAS is amenable to the
OIG's recommendation for this specific BPA and believes that the strategy fully supports
the best interest of the customer and taxpayer in fully documenting the file.


Recommendation No.4
Ensure that future SPA awards reflect consideration of the factors listed in
FAR Subpart 8.405-3(a)(1) when determining the number of BPAs to establish for
BPA awards.

FAS concurs.




                                          A-3
 
                          REVIEW OF THE FEDERAL
                       ACQUISITION SERVICE BLANKET
                   PURCHASE AGREEMENTS FOR ACQUISITION
                      MANAGEMENT SUPPORT SERVICES
                     REPORT NUMBER A090018/Q/A/P10002


                                      APPENDIX B

                                  Report Distribution

                                                                   Copies

Commissioner, Federal Acquisition Service (Q)                        3

Internal Control and Audit Division (BEI)                            1

Assistant Inspector General for Auditing (JA & JAO)                  2

Assistant Inspector General for Investigations (JI)                  1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)     1




                                            B-1
